No. 19A879
IN THE SUPREME COURT OF THE UNITED STATES
_________________
FEDERAL COMMUNICATIONS COMMISSION
AND UNITED STATES OF AMERICA,
APPLICANTS
v.
PROMETHEUS RADIO PROJECT, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR A FURTHER EXTENSION OF TIME WITHIN WHICH TO
FILE A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT, via email and first-class mail, postage
prepaid, this 9th day of March, 2020.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 9, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19A879
FEDERAL COMMUNICATIONS COMMISSION
AND UNITED STATES OF AMERICA
PROMETHEUS RADIO PROJECT, ET AL.
ANGELA J. CAMPBELL
INSTITUTE FOR PUBLIC REPRESENTATION
GEORGETOWN LAW
600 NEW JERSEY AVENUE, NW
SUITE 312
WASHINGTON, DC 20001
CAMPBEAJ@LAW.GEORGETOWN.EDU
CHERYL A. LEANZA
BEST BEST KRIEGER
2000 PENNSYLVANIA AVENUE, NW
SUITE 5300
WASHINGTON, DC 20006
202-785-1234
CHERYL.LEANZA@BBKLAW.COM
ANDREW J. SCHWARTZMAN
1341 G STRET, NW
5TH FLOOR
WASHINGTON, DC 20005
ANDYSCHWARTZMAN@GMAIL.COM
HELGI C. WALKER
GIBSON DUNN & CRUTCHER
1050 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036
202-467-0539
HWALKER@GIBSONDUNN.COM
YOSEF GETACHEW
COMMON CAUSE
805 15TH STREET, NW
SUITE 800
WASHINGTON, DC 20005
202-736-5707
YGETACHEW@COMMONCAUSE.ORG

DAVID E. MILLS
COOLEY
1299 PENNSYLVANIA AVENUE, NW
SUITE 700
WASHINGTON, DC 20004
202-842-7899
DMILLS@COOLEY.COM
DAVID D’ALESSANDRO
STINSON LEONARD STREET
1775 PENNSYLVANIA AVENUE, NW
SUITE 800
WASHINGTON, DC 20006
202-785-9100
DAVID.DALESSANDRO@STINSON.COM
CRAIG E. GILMORE
DAVID D. OXENFORD
WILKINSON BARKER KNAUER
1800 M STREET, NW
SUITE 800N
WASHINGTON, DC 20036
202-783-5851
CGILMORE@WBKLAW.COM
DOXENFORD@WBLAW.COM
KEVIN F. KING
SALLY A. BUCKMAN
LERMAN SENTER
2001 L STREET, NW
SUITE 400
WASHINGTON, DC 20036
202-778-5488
KKING@COV.COM
SBUCKMAN@LERMANSENTER.COM
EVE REED
WILEY REIN
1776 K STREET, NW
WASHINGTON, DC 20006
202-719-7000
EREED@WILEYREIN.COM

JEETANDER T. DULANI
PILLSBURY WINTHROP SHAW PITTMAN
1200 17TH STREET, NW
WASHINGTON, DC 20036
202-663-8383
JEETANDER.DULANI@PILLSBURYLAW.COM
JACK N. GOODMAN
1200 NEW HAMPSHIRE AVENUE, NW
SUITE 600
WASHINGTON, DC 20036
202-776-2045
JACK@JACKNGOODMAN.COM
JESSICA J. GONZALEZ
FREE PRESS
1025 CONNECTICUT AVENUE, NW
SUITE 1110
WASHINGTON, DC 20036
310-809-2577
JGONZALEZ@FREEPRESS.NET
DANIELLE J. COFFEY
NEWS MEDIA ALLIANCE
4401 NORTH FAIRFAX DRIVE
ARLINGTON, VA 22203
571-366-1000
DANIELLE@NEWSMEDIAALLIANCE.ORG

